NATIONAL CREDIT UNION ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL



        SEMIANNUAL REPORT
                TO
           THE CONGRESS

         October 1, 2012 – March 31, 2013
                                                         TABLE OF CONTENTS

INSPECTOR GENERAL'S MESSAGE ................................................................................................................. i

THE NCUA AND OFFICE OF INSPECTOR GENERAL MISSIONS ........................................................... 1

INTRODUCTION..................................................................................................................................................... 2

NCUA HIGHLIGHTS .............................................................................................................................................. 5

FEDERALLY INSURED CREDIT UNION HIGHLIGHTS ............................................................................. 9

LEGISLATIVE HIGHLIGHTS ............................................................................................................................ 10

OFFICE OF THE INSPECTOR GENERAL ..................................................................................................... 12

AUDIT ACTIVITY ................................................................................................................................................ 13

LEGISLATIVE AND REGULATORY REVIEWS .......................................................................................... 25

TABLE I: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS ..................... 27

TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE .................................................................................................................. 28

TABLE III: SUMMARY OF OIG ACTIVITY OCTOBER 1, 2012 THROUGH MARCH 31, 2013 ... 29

INDEX OF REPORTING REQUIREMENTS.................................................................................................. 30

APPENDIX A: SYSTEM REVIEW REPORT (PEER REVIEW OF NCUA OIG) ................................... 31
Semiannual Report to the Congress                              October 1, 2012 – March 31, 2013




                          INSPECTOR GENERAL'S MESSAGE
                      TO THE NCUA BOARD AND THE CONGRESS

On behalf of the Office of Inspector General (OIG) of the National Credit Union
Administration (NCUA), I am pleased to present our Semiannual Report to the NCUA
Board and the Congress highlighting our accomplishments and ongoing work for the
six-month period ending March 31, 2013.

We had an especially heavy audit workload during this reporting period. We issued
three material loss reviews (MLRs), one system review, a mandated review of NCUA’s
Information Security Management Program (FISMA), and reported on the financial
statement audits of the NCUA Operating Fund, the National Credit Union Share
Insurance Fund, the Central Liquidity Facility, the Community Development Revolving
Loan Fund, and the Temporary Corporate Credit Union Stabilization Fund – all of which
received “clean,” unqualified opinions. While our MLR work is beginning to subside, we
reported on the reasons for the failure of O.U.R. Federal Credit Union, Eastern New
York Federal Credit Union, and Telesis Community Credit Union.

Our Office of Investigations closed three cases during this reporting period, all involving
employee misconduct. We investigated an allegation that an NCUA employee used her
government-issued travel card for personal purchases. The investigation was
substantiated and the employee resigned. We also received an allegation of an
employee filing improper travel claims. The investigation did not substantiate the
allegation and the case was closed. The third investigation involved allegations that a
newly hired employee falsified his employment application regarding his education and
pending criminal charges. The investigation substantiated the allegations and the
employee was terminated.

In addition to the recurring congressional requests which we routinely respond to, our
office also responded to two congressional requests this period which entailed
extensive audit and legal engagement. The first responded to a request from the
Chairman of the House Committee on Oversight and Government Reform inquiring
about NCUA’s use of contingency fee arrangements with outside counsel hired to
handle certain financial securities-related litigation. After considerable legal analysis we
concluded that the contingency fee arrangement NCUA (acting as Conservator) entered
into with outside counsel did not violate an Executive Order prohibiting such
arrangements. Moreover, we found that the contingency fee arrangement was cost

                                             i
Semiannual Report to the Congress                               October 1, 2012 – March 31, 2013


effective, was reasonable in light of the uniqueness of the litigation, and did not result in
member credit unions paying unnecessarily high legal fees. The second was a request
from the Co-Chairs of the Bicameral Task Force on Climate Change seeking
information concerning the NCUA’s actions to address climate change. We responded
with a letter outlining the energy initiatives the agency has undertaken in recent years.
We further notified the Task Force of our recommendation to the NCUA that it
undertake a more formal review of applicable legislation, Executive Orders, and other
legal authorities imposing specific energy management program requirements on it and
begin to take the steps necessary to comply with such authorities.

As a member of the Council of Inspectors General on Financial Oversight (CIGFO),
during the reporting period I met quarterly with other Inspectors General of financial
regulatory agencies to facilitate the sharing of information addressing concerns that may
apply to the broader financial sector and ways to improve financial oversight. And, on
an internal matter, I am pleased to report that the Peace Corps OIG completed a Peer
Review of our office and accorded us the highest grade possible with no deficiencies or
recommendations.

All this brings me to one final statement. This semiannual report will be my last since I
have decided to retire after serving eight years as NCUA’s Inspector General and over
44 years of government service. I wish to express my appreciation to the NCUA Board
and senior management for their consistent cooperation with and support of me and the
work of the OIG. But most importantly, I want to thank my staff for their dedication and
hard work in making the NCUA OIG not only a first class organization but a family away
from home working together for a common purpose.




                                    William A. DeSarno
                                    Inspector General




                                              ii
Semiannual Report to the Congress                          October 1, 2012 – March 31, 2013




                                    THE NCUA MISSION

NCUA’s charge is to provide, through regulation and supervision, a safe and sound
credit union system which promotes confidence in the national system of cooperative
credit.




                   THE OFFICE OF INSPECTOR GENERAL MISSION

The OIG promotes the economy, efficiency, and effectiveness of NCUA programs and
operations, and detects and deters fraud, waste, and abuse, thereby supporting the
NCUA’s mission of monitoring and promoting safe and sound federally insured credit
unions.

We accomplish our mission by conducting independent audits, investigations, and other
activities, and by keeping the NCUA Board and the Congress fully and currently
informed of our work.




                                           1
   Semiannual Report to the Congress                                      October 1, 2012 – March 31, 2013



                                              INTRODUCTION

The NCUA was established as an independent, federal regulatory agency on March 10, 1970.
The agency is responsible for chartering, examining, supervising, and insuring federal credit
unions. It also insures state-chartered credit unions that have applied for insurance and have
met National Credit Union Share Insurance requirements. The NCUA is funded by the credit
unions it supervises and insures. As of December 31, 2012, the NCUA was supervising and
insuring 4,272 federal credit unions and insuring 2,547 state-chartered credit unions, a total of
6,819 institutions. This represents a decline of 175 federal and 100 state-chartered institutions
since December 31, 2011, for a total decline of 275 credit unions nationwide, primarily as a
result of mergers and liquidations. The NCUA operates under the direction of a Board
composed of three members. Board members are appointed by the President and confirmed


                                        Federally Insured Credit Unions


                8000

                7000
                         2959
                6000                   2840     2750
                                                           2647
                                                                   2547
                5000

                4000                                                                          FISCUs
                                                                                              FCUs
                3000
                         4847          4714     4589       4447    4272
                2000

                1000

                   0
                         2008          2009     2010       2011    2012




by the Senate. They serve six-year terms. Terms are staggered, so that one term expires
every two years. The Board is responsible for the management of the NCUA, including the
NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, the
Community Development Revolving Loan Fund, and the Temporary Corporate Credit Union
Stabilization Fund.




                                                       2
   Semiannual Report to the Congress                            October 1, 2012 – March 31, 2013


The NCUA executes its program through its central office in Alexandria, Virginia and regional
offices in Albany, New York; Alexandria, Virginia; Atlanta, Georgia; Austin, Texas; and Tempe,
Arizona. The NCUA also operates the Asset Management and Assistance Center (AMAC) in
Austin, Texas. Please refer to the NCUA organizational chart below.




                                              3
Semiannual Report to the Congress                                              October 1, 2012 – March 31, 2013


The NCUA Board adopted its 2013 budget of $251,387,091 on November 15, 2012.
The Full-Time Equivalent (FTE) staffing authorization for 2013 is 1,261.50 representing
no increase in FTEs from 2012.


                                                NCUA Budget Dollars
                                300

                                250

                                200
              Millions




                                150

                                100

                                50

                                 0
                                         2009    2010         2011      2012           2013




                                                NCUA Authorized Staff
                                1400

                                1200

                                1000
              Employees (FTE)




                                800

                                600

                                400

                                200

                                     0
                                         2009     2010        2011      2012           2013




                                                          4
Semiannual Report to the Congress                              October 1, 2012 – March 31, 2013




                                    NCUA HIGHLIGHTS

NCUA Selects Mark Treichel as Executive Director
On December 30, 2012, Mark A. Treichel assumed his new role as the agency’s
Executive Director, the agency’s most senior career position and responsible for
overseeing NCUA’s daily operations.

Since 2003, Treichel has served as the Regional Director of NCUA’s Region I office in
Albany, N.Y. As Regional Director, he had responsibility for the oversight of federally
insured credit unions in Connecticut, Maine, Massachusetts, Michigan, Nevada, New
Hampshire, New York, Rhode Island and Vermont. Treichel joined NCUA in 1986 in
Minneapolis and rose through the ranks becoming a problem case officer in 1990 and a
supervisory examiner in 1991. Starting in 1995, Treichel served as Director of Special
Actions in Concord, Calif. He also had a stint as Acting Risk Management Director in
1998 in the Office of Examination and Insurance, before becoming Associate Regional
Director of Operations in Region I later that year. Between 2000 and 2003, Treichel
returned to Alexandria, Va., in the role of Deputy Executive Director.

Treichel replaces the outgoing Executive Director, David Marquis, who retired at the end
of 2012.

U.S. Central Bridge Closed
On Oct. 29, 2012, NCUA closed U.S. Central Bridge Corporate Federal Credit Union
(U.S. Central Bridge), completing three years of efforts to stabilize the corporate credit
union sector.

Chartered in October 2010, the Lenexa, Kansas-based U.S. Central Bridge assumed
operations of U.S. Central Federal Credit Union (U.S. Central) to maintain continuity of
services to corporate credit union members, prevent disruption to the credit union
system, and protect consumers.

Founded in 1974, U.S. Central was once the largest corporate credit union. However, it
was part of a group of five corporate credit unions devastated by losses incurred
through the purchase of faulty mortgage-backed securities (MBS) in the years
preceding the financial crisis that began in 2008. NCUA placed U.S. Central into
conservatorship in March 2009, and the credit union was subsequently transitioned into
U.S. Central Bridge.

NCUA Takes Additional Legal Action against Wall Street Investment Firms
During this reporting period, NCUA took legal action against Wall Street investment
firms Credit Suisse, a subsidiary of the Swiss-based financial services firm, J.P. Morgan
Securities, and Bear, Stearns & Co., which was subsequently purchased by J.P.
Morgan Securities in 2008, after the demise of Bear, Stearns & Co.

                                             5
Semiannual Report to the Congress                             October 1, 2012 – March 31, 2013


As liquidating agent for U.S. Central Federal Credit Union (US Central), Western
Corporate Federal Credit Union (WesCorp) and Southwest Corporate Federal Credit
Union (Southwest), NCUA has a statutory duty to seek recoveries from responsible
parties in order to minimize the cost of any failure to its insurance funds and the credit
union industry. NCUA filed suit in Federal District Court in Kansas against Credit
Suisse Securities (USA) in October 2012, and J.P. Morgan Securities and Bear, Stearns
& Co. in December 2012, to recover losses from investments in faulty securities.

NCUA’s suits allege Credit Suisse and Bears, Stearns & Co. violated federal and state
securities laws through misrepresentations in connection with the underwriting and
subsequent sale of mortgage-backed securities to the aforementioned failed corporate
credit unions.

NCUA Settles Claims against Bank of America
During this reporting period, NCUA announced a settlement with Bank of America and
certain of its subsidiaries ("Bank of America") for $165 million for losses related to
purchases of residential mortgage-backed securities by failed corporate credit unions.

In all, NCUA has obtained more than $335 million in legal settlements, having settled
three similar agreements with Citigroup, Deutsche Bank Securities and HSBC that
totaled $170.75 million. Bank of America did not admit fault as part of the settlement.

NCUA was the first federal regulatory agency for depository institutions to recover
losses from investments in these securities on behalf of failed financial institutions.
NCUA uses the net proceeds to reduce Temporary Corporate Credit Union Stabilization
Fund (Stabilization Fund) assessments charged to federally insured credit unions to pay
for the losses caused by the failure of five corporate credit unions.

NCUA Ranks among Best Places to Work
NCUA showed the strongest growth in employee satisfaction among medium-sized
federal agencies in the annual Best Places to Work in the Federal Government rankings
according to the nonpartisan organization, Partnership for Public Service.

Nearly 700,000 federal workers participated in the U.S. Office of Personnel
Management’s Federal Employee Viewpoint survey used by the Partnership for Public
Service to compile the Best Places to Work in the Federal Government rankings.
Agencies were measured on overall employee satisfaction and in 10 workplace
categories, including effective leadership, employee skills/mission match, teamwork and
work/life balance.

NCUA ranked first for improvement in employee satisfaction year-over-year amongst 22
federal medium-sized agencies, and improved its overall annual ranking from 16th (out
of 35) in 2012 when NCUA was in the small-sized agency category, to 6th – bettering its
scores in nearly every survey category. NCUA made the gains despite government-
wide declines.


                                              6
Semiannual Report to the Congress                             October 1, 2012 – March 31, 2013


NCUA ranked second for employee skills/mission match amongst its peer agencies,
and the agency’s employees gave NCUA strong endorsements in areas of diversity,
fairness, and employee empowerment.

In other findings of the 2012 report, for employee satisfaction and commitment among
medium-sized agencies NCUA:

        • Ranked 1st among Hispanics.

        • Ranked 2nd among African-Americans.

        • Ranked 3rd among whites, veterans, men, workers above 40, and workers
          below 40 years old.

        • Ranked 4th among women and Asians.

In its analysis of survey results, the Partnership for Public Service noted NCUA’s overall
score has been steadily increasing for the past few years and is up 10.9 points since
2009.

NCUA’s National Supervision Policy Manual Released to the Public
In November 2012, NCUA released a public version of its National Supervision Policy
Manual (NSPM), the product of a two-year project to create uniform operations and
procedures for supervision throughout the country and improve the agency’s ability to
operate efficiently across regions. The NSPM, which describes the agency’s internal
operations and procedures for supervisory staff, brings “more consistency and clarity” to
the examination process as noted by NCUA Board Chairman Debbie Matz.

NCUA has trained examiners on the procedures outlined in the NSPM and will review
and update the NSPM as warranted. Certain sensitive parts of the manual remain
confidential and are not included in the released public version, as disclosure could
impair NCUA’s ability to minimize losses to the National Credit Union Share Insurance
Fund or negatively affect the agency’s ability to conduct effective supervision.

Credit unions already have access to NCUA’s Examiner’s Guide. The release of the
NSPM, a companion to the Examiner’s Guide, furthers public access to information on
NCUA’s internal policy for supervisory operations and procedures.

NCUA Ensured Credit Union Members Received Needed Services Following Hurricane
Sandy
In the wake of Hurricane Sandy, NCUA activated its disaster relief policy, which
consisted of the establishment of a Hurricane Sandy webpage to list credit unions
temporarily closed by the storm or in non-operational status. NCUA monitored the
status of more than 2,000 credit unions in the storm’s path and assisted credit unions
and their members by having examiners along the East Coast check with their credit
unions and provide support and assistance, as warranted. NCUA expanded the

                                            7
Semiannual Report to the Congress                              October 1, 2012 – March 31, 2013


agency’s consumer assistance hotline to answer the many financial questions that
members had related to the emergency, which typically included inquiries about the
operational status of specific credit union facilities, outages of credit union ATMs,
websites, and phones, as well as the status of direct deposits.

In addition, NCUA also expedited credit union emergency grant applications. Through
the Urgent Needs Initiative, NCUA provides grants to low-income credit unions to help
restore operations and fix facilities after natural disasters and other unexpected adverse
events. NCUA committed to quickly reviewing grant requests, as demonstrated when
NCUA received the first Hurricane Sandy-related request for a grant on October 31,
2012 and approved the application November 1, 2012.

NCUA Financial Statements Earn Clean Audit Opinions for 2012
The NCUA, on February 15, 2013, released its 2012 audited financial report for the
agency’s four permanent funds (the National Credit Union Share Insurance Fund
(NCUSIF); the Central Liquidity Facility (CLF); the Community Development Revolving
Loan Fund (CDRLF) and the Operating Fund). All four funds received unqualified or
“clean” audit opinions, including the NCUSIF that protects deposits up to $250,000 for
more than 91 million consumers at federally insured credit unions. NCUA’s
independent financial auditor, KPMG LLP, completed the audits of all four funds.

In addition, on March 27, 2013, KPMG LLP issued an unqualified opinion on the
Temporary Corporate Credit Union Stabilization Fund (Stabilization Fund) 2012
financial statements. This marks the third year in a row NCUA received a clean audit
opinion from KPMG for the Stabilization Fund. Since releasing the 2010 Stabilization
Fund audit, NCUA has continued to strengthen the systems needed to handle the
Stabilization Fund’s many complex transactions, including those related to the NCUA
Guaranteed Notes. NCUA also improved its internal control environment, which
allowed the 2012 audited financial statements to be completed three months earlier
than the 2011 statements.

The Stabilization Fund provides NCUA with the flexibility needed to manage the effect
of the costs to the credit union system associated with the losses on troubled
mortgage-backed securities purchased by the five failed corporate credit unions.
NCUA liquidated these five failed credit unions in 2009 and 2010.

NCUA’s Financial Statement Audit reports for 2012 are available at:

http://www.ncua.gov/about/Leadership/CO/OIG/Pages/AuditRpt2013.aspx




                                            8
   Semiannual Report to the Congress                              October 1, 2012 – March 31, 2013



              FEDERALLY INSURED CREDIT UNION HIGHLIGHTS

Credit unions submit quarterly call reports (financial and operational data) to the NCUA. An
NCUA staff assessment of the December 31, 2012, quarterly call reports submitted by all
federally insured credit unions found that key financial indicators are mixed.

Key Financial Indicators Favorable
Looking at the December 31, 2012 quarterly statistics for major balance sheet items and key
ratios shows the following for the nation’s 6,819 federally insured credit unions: assets grew
6.24 percent; net worth to assets ratio increased from 10.21 to 10.44 percent; the loan to share
ratio decreased from 69.07 percent to 68.09 percent. However, the delinquency ratio
decreased from 1.60 to 1.16 percent; and credit union return on average assets increased
from .67 percent to .86 percent.

Savings Shifting to Regular Shares
Total share accounts increased 6.10 percent. Regular shares increased 12.25 percent.
Regular shares comprise 31.32 percent of total share accounts; share certificates comprise
22.54 percent; money market shares comprise 23.17 percent; share draft accounts comprise
12.70 percent; and all other share accounts comprise 10.27 percent.

Loan Volume Flat
Loans increased 4.59 percent resulting in an increase in total loans by $26.26 billion. Total net
loans of $598 billion comprise 57.71 percent of credit union assets. First mortgage real estate
loans are the largest single asset category with $246 billion accounting for 41.21 percent of all
loans. Other real estate loans of $74 billion account for 12.38 percent of all loans. Used car
loans of $115 billion were 19.28 percent of all loans, while new car loans amounted to $63
billion or 10.59 percent of total loans. Credit card loans totaled $40 billion or 6.61 percent of
total loans and other loans totaled $59 billion for 9.93 percent of total loans.




                                                9
   Semiannual Report to the Congress                               October 1, 2012 – March 31, 2013




                                  LEGISLATIVE HIGHLIGHTS

Credit Unions Continue to Urge Congress for Passage of S. 2231
Credit unions and industry groups continue to press lawmakers for passage of S. 2231, the
“Small Business Lending Enhancement Act of 2012,” which would raise the credit union
member business loan (MBL) cap to 27.5 percent of assets for eligible institutions, up from
the current level of just over 12%. The increase would free up credit unions to lend
significantly more money to small businesses and fill a void left by the for-profit banking
industry. In late November 2012, approximately 500 representatives from credit unions and
small businesses arrived in Washington, D.C. to push for support from legislators. Banks and
organizations opposing the bill, including the American Bankers Association and the
Independent Community Bankers of America, simultaneously sent lobbyists of their own for a
coordinated effort opposing the bill. The bill, introduced by Sen. Mark Udall (D., Colo.) on
March 22, 2012, currently has 21 co-sponsors.

House Unanimously Passes Annual Privacy Disclosures Notices Bill
The “Gramm-Leach-Bliley Act,” enacted in 1999, requires financial institutions to issue privacy
disclosure notices to consumers that detail the institution’s privacy policies if it shares
customers’ non-public personal information with affiliates or third parties. The law also
requires notifying existing and potential customers of their right to opt out of sharing of non-
public personal information with third parties. Such disclosures are required to occur when a
customer relationship is first established with the institution and annually in written form as
long as the relationship continues, even if no changes to the disclosure policies have
occurred.

H.R. 749, the “Eliminate Privacy Notice Confusion Act,” was introduced to reduce confusion
among consumers that can occur when they receive annual privacy notices. The bill clarifies
that annual privacy notices are only required when disclosure policies change after the
relationship begins, and to the extent an institution shares sensitive personal information with
third parties for marketing purposes.

The privacy notice, for most institutions, is readily available for viewing online, as well as
available at branch locations for consumers to acquire if they so wish. The impetus behind the
legislation is based on the staff resources and money wasted to send the required notice to
millions of credit union members--resources that could better serve them in the form of loans
or interest payments. Moreover, as many institutions and consumers are earnestly attempting
to “go green” the current requirement stands in stark contrast.

At the end of the 112th Congress, the House passed legislation (H.R. 5817) by unanimous
consent that would have eliminated the unnecessary, redundant and costly annual privacy
policy notice requirement for institutions that:

       1. Do not share information with non-affiliated third parties; and


                                               10
   Semiannual Report to the Congress                                 October 1, 2012 – March 31, 2013


       2. Do not change its privacy policy from the last time it was disclosed.

While the Senate did not act on H.R. 5817, it was re-introduced in the House at the beginning
of the 113th Congress by Reps. Blaine Luetkemeyer (R., MO) and Brad Sherman (D., CA) as
H.R. 749. On March 12, 2013 the House passed H.R. 749 by unanimous consent.

NCUA Joins Independent Financial Regulators Opposing S. 3468
Senate Bill 3468, the “Independent Agency Regulatory Analysis Act of 2012, which could
slow the pace of new regulations issued by the NCUA and the Consumer Financial Protection
Bureau (CFPB), currently has three sponsors in the Senate. The bill, which was referred to
the Committee on Homeland Security and Government Affairs, would require independent
federal regulators, including NCUA, to first gain approval from the Office of Management and
Budget (OMB) before issuing new regulations. Because of the potential for congressional
action on the bill, six independent regulators—the Federal Reserve Board Chairman Ben
Bernanke, Securities and Exchange Commission then-Chairman Mary Schapiro, Comptroller
of the Currency Thomas Curry, Federal Deposit Insurance Corporation Acting Chairman
Martin Gruenberg, CFPB Director Richard Cordray, and NCUA Chairman Debbie Matz, sent a
letter, dated October 26, 2012, outlining their opposition to former Committee Chairman
Joseph Lieberman (I., Conn.) and former Ranking Member Susan Collins (R., Maine). Collins
was a co-sponsor of the bill, along with Sen. Mark Warner (D., Va.) and Sen. Rob Portman
(R., Ohio), who introduced it on August 1, 2012.

Collins and Portman are also co-sponsors of S. 2160, the “Financial Institutions Examination
Fairness and Reform Act,” which would require the NCUA and other financial regulators to
provide credit unions with documented support when mandating solutions for exam
exceptions, and create a new Ombudsman position to hear exam appeals.

The regulators’ primary opposition to S. 3468 is that it would infringe upon their statuses as
independent agencies, giving the executive branch “unprecedented authority” to influence
“policy and rulemaking functions.” The bill, which would require more than just cost-benefit
analyses, would also interfere with the NCUA’s ability to finalize rules critical to its mission in a
timely manner, opening the agency up for lawsuits.




                                                 11
   Semiannual Report to the Congress                                  October 1, 2012 – March 31, 2013




                         OFFICE OF THE INSPECTOR GENERAL
The Office of the Inspector General was established at the NCUA in 1989 under the authority of the
Inspector General Act of 1978, as amended. The staff consists of the Inspector General, Deputy
Inspector General, Counsel to the Inspector General/Assistant Inspector General for Investigations,
Director of Investigations, three Senior Auditors, Senior Information Technology Auditor, and Office
Manager.

The Inspector General reports to, and is under the general supervision of, the NCUA Board. The
Inspector General is responsible for:

       1. Conducting, supervising, and coordinating audits and investigations of all NCUA programs
          and operations;

       2. Reviewing policies and procedures to ensure efficient and economic operations as well as
          preventing and detecting fraud, waste, and abuse;

       3. Reviewing existing and proposed legislation and regulations to evaluate their impact on the
          economic and efficient administration of agency programs; and

       4. Keeping the NCUA Board and the Congress apprised of significant findings and
          recommendations.




                                                  12
   Semiannual Report to the Congress                              October 1, 2012 – March 31, 2013




                                       AUDIT ACTIVITY

AUDIT REPORTS ISSUED
OIG-12-11 – October 2, 2012
Material Loss Review of O.U.R. Federal Credit Union
The National Credit Union Administration (NCUA) Office of Inspector General (OIG) contracted
with Moss Adams LLP to conduct a Material Loss Review (MLR) of O.U.R Federal Credit
Union (O.U.R. FCU). Although the anticipated loss to the National Credit Union Share
Insurance Fund (NCUSIF) for O.U.R FCU did not meet the statutory loss threshold to require
an MLR, we identified the circumstances surrounding the failure of O.U.R. FCU to be unusual
in nature and therefore determined a MLR should be performed. We reviewed O.U.R. FCU to:
(1) determine the cause of the failure and resulting loss to the NCUSIF; (2) assess NCUA's
supervision of the credit union; and (3) make appropriate recommendations to prevent future
losses.

Our review determined O.U.R. FCU failed due to the actions of its manager and Board.
Specifically, suspicious activity by the manager was facilitated by ineffective Board oversight, a
weak control environment, inaccurate accounting, and misstated financial reports. In addition,
we determined the loss to the NCUSIF could have been prevented or reduced had examiners:
(1) required a system generated download of member accounts that reconciled to the general
ledger; (2) more aggressively pursued resolution to issues raised by examiners; and (3)
properly assessed and addressed the risks of the internal control environment.

OIG-12-12 – October 11, 2012
Audit of NCUA’s Use of the Delphi Financial Management System versus the SAP R/3 Enterprise
Resource Planning System
The NCUA OIG conducted an audit to determine why NCUA has not fully implemented the
Delphi Financial Management System (Delphi) and continues to use the SAP R/3 Enterprise
Resource Planning (SAP). To accomplish this audit, we reviewed Office of Management and
Budget Memoranda pertaining to Financial Management Lines of Business, Financial
Management Systems (FMS), and FMS Shared Service Providers. We also interviewed staff
from the NCUA Office of the Chief Financial Officer and reviewed NCUA and other
documentation pertaining to SAP, the Department of Transportation Enterprise Service Center
and its Delphi FMS, and NCUA’s efforts in transitioning to Delphi. We determined NCUA has
fully implemented Delphi, but continues to use SAP along with Delphi because SAP fulfills
other financial management functions and human resource functions.

Based on NCUA’s current and planned use of Delphi and SAP and the significantly reduced
resources necessary to concurrently maintain SAP, we did not make any recommendations.
In its response, NCUA management indicated that when Delphi went live in January 2010, it
gave users a more functional management system than any other system NCUA had
previously used. NCUA management also indicated there will be additional enhancements to
the agency’s management systems which will eventually allow NCUA to eliminate SAP.

                                               13
   Semiannual Report to the Congress                            October 1, 2012 – March 31, 2013


OIG-12-13 – November 15, 2012
Independent Evaluation of the NCUA’s Compliance with the Federal Information Security
Management Act (FISMA) 2012
The OIG engaged Mitchell & Titus, LLP to independently evaluate its information systems
and security program and controls for compliance with the Federal Information Security
Management Act (FISMA), Title III of the E-Government Act of 2002.

While NCUA has worked to further strengthen its information security program during Fiscal
Year (FY) 2012, we identified three issues remaining from last year’s FISMA evaluation that
NCUA officials need to address: Developing a Continuous Monitoring strategy and plan;
Reviewing (and reducing) holdings of Personally Identifiable Information; and Addressing
the minimum security controls in the Asset Management and Assistance Center Security
Plan.

In addition, we identified new findings in each of the following areas and made 29
recommendations where NCUA could continue to improve its information security and
privacy programs: Continuous Monitoring, Risk Management, Plan of Actions and
Milestones, Configuration Management, Identity and Access Management, Remote Access
Management, Incident Response and Reporting, Contingency Planning, Security Capital
Planning, Security Training, Contractors Systems and Privacy.

OIG-12-14 –November 19, 2012
Material Loss Review of Eastern New York Federal Credit Union
The OIG contracted with Crowe Horwath LLP to conduct a Material Loss Review (MLR) of
Eastern New York Federal Credit Union (ENY FCU). Although the anticipated loss to the
National Credit Union Share Insurance Fund (NCUSIF) for ENY FCU did not meet the
statutory loss threshold to require an MLR, we identified the circumstances surrounding the
failure of ENY FCU to be unusual in nature and therefore determined an MLR should be
performed. We reviewed ENY FCU to: (1) determine the cause of the failure and resulting
loss to the NCUSIF; (2) assess NCUA's supervision of the credit union; and (3) make
appropriate recommendations to prevent future losses.

Our review determined ENY FCU failed because its Board did not provide appropriate
leadership or oversight of the credit union. Specifically, Board members granted excessive
authority to the CEO and he used that authority and undertook business ventures that
proved to be catastrophic to the credit union. These ventures involved complex CUSO
activity, unsound MBL origination practices, and excessive fixed assets. In addition, we
determined examiners could have mitigated the loss to the NCUSIF had: (1) examiners
conducted adequate examination procedures related to investments, earnings, net worth,
and income;(2) examiners conducted more in-depth examination procedures for CUSO-
related activity; and (3) sufficient supervisory oversight been provided to a new examiner
having limited experience.

The report made two recommendations and two suggestions we believed would help
examiners as they perform risk-focused examinations. NCUA Management agreed with


                                              14
   Semiannual Report to the Congress                              October 1, 2012 – March 31, 2013


our recommendations and suggestions and we believe management’s actions taken and
planned addressed the issues identified in this report.

OIG-13-01/02/03/04 – February 15, 2013
NCUA Financial Statements Audit 2012: Community Development Revolving Loan Fund,
Operating Fund, Central Liquidity Fund, Share Insurance Fund
Our contracting audit firm, KPMG LLP, issued opinions on the 2012 financial statements of the
National Credit Union Administration Community Development Revolving Loan Fund, Operating
Fund, Central Liquidity Facility and the National Credit Union Share Insurance Fund. The
auditors found that the financial statements presented fairly the financial position of the
agency’s funds as of December 31, 2012.

The Community Development Revolving Loan Fund’s (OIG-13-01) purpose is to stimulate
economic activities in the communities served by low-income credit unions. This in turn will
result in increased income, ownership and employment opportunities for low-wealth residents
and other economic growth. The auditors issued an unqualified opinion on the Fund’s
financial statements. The Community Development Revolving Loan Fund’s total assets for
2012 were $16.9 million, down from 17.1 million in 2011.

The NCUA Operating Fund (OIG-13-02) was established as a revolving fund managed by the
NCUA Board for the purpose of providing administration and service to the federal credit union
system. The auditors issued an unqualified opinion on the Operating Fund’s financial
statements. The fund’s total assets for 2012 were $77.4 million, down from $79.6 million in
2011.

The Central Liquidity Facility (OIG-13-03) was established as a mixed ownership government
corporation managed by the NCUA Board to improve general financial stability by meeting the
liquidity needs of credit unions. The auditors issued an unqualified opinion on the Central
Liquidity Facility’s (CLF) financial statements. The CLF’s total assets for 2012 were $111.5
million, down from $2.1 billion in 2011.

The National Credit Union Share Insurance Fund (OIG-12-04) was established as a revolving
fund managed by the NCUA Board to insure member share deposits in all Federal credit
unions and qualifying state credit unions. The auditors issued an unqualified opinion on
the Share Insurance Fund’s financial statements. The Fund’s total assets for 2012 were
11.9 billion, up from $11.7 billion in 2011.

OIG-13-05 – March 15, 2013
Material Loss Review of Telesis Community Credit Union
The OIG contracted with Moss Adams LLP to conduct a Material Loss Review (MLR) of
Telesis Community Credit Union (Telesis). We reviewed Telesis to: (1) determine the
cause(s) of the Credit Union’s failure and the resulting estimated $77 million loss to the
NCUSIF; (2) assess NCUA’s supervision of the institution; and (3) make appropriate
observations and/or recommendations to prevent future losses.



                                               15
   Semiannual Report to the Congress                           October 1, 2012 – March 31, 2013


We determined Telesis failed because its Board and management made poor strategic
decisions which led to an over-reliance on member business lending, particularly in
commercial real estate, and a dependence on fee and service income from its CUSO. In
addition, we determined the loss to the NCUSIF could have been prevented or mitigated
had examiners taken a more timely and aggressive approach regarding Telesis’
concentration risks in its member business loan portfolio. We also determined NCUA could
have coordinated more effectively with the California DFI, and that NCUA management
created a lack of continuity in the supervision of Telesis from an ever-shifting regional
authority.

The MLR report re-emphasized one recommendation made in a previous OIG MLR report
and made two new recommendations to bolster the risk-focused examination process.
NCUA Management agreed with our recommendations and we believe management’s
actions taken and planned addressed the issues identified in the report.

OIG-13-06 –March 27, 2013
2012 NCUA Financial Statement Audit of the Temporary Corporate Credit Union Stabilization
Fund
Our contracting audit firm, KPMG LLP, issued its opinion on the 2012 financial statements of
the National Credit Union Administration Temporary Corporate Credit Union Stabilization Fund
(TCCUSF). The auditors found that the financial statements presented fairly the financial
position of the agency fund as of December 31, 2012 and issued an unqualified opinion on
the TCCUSF’s financial statements.

The TCCUSF was created by Public Law 111-22, “Helping Families Save Their Homes Act of
2009,” enacted May 20, 2009. The fund was established as a revolving fund in the Treasury of
the United States under the management of the Board of Directors of the NCUA. The purposes
of the TCCUSF are to accrue the losses of the corporate credit union system, and over time, to
assess the credit union system for the recovery of such losses. The TCCUSF’s net position
was a $3.5 billion deficit for the period ending December 31, 2012.




                                             16
   Semiannual Report to the Congress                             October 1, 2012 – March 31, 2013


AUDITS IN PROGRESS

Material Loss Reviews
The Federal Credit Union Act requires the NCUA OIG to conduct a Material Loss Review
(MLR) of an insured credit union if the loss exceeds $25 million. We have one MLR on Chetco
Federal Credit Union that matches this criterion. In addition, the Dodd-Frank Wall Street
Reform and Consumer Protection Act requires the OIG to assess all losses to the NCUSIF
under the $25 million threshold and determine if unusual circumstances warrant a MLR. We
determined that El Paso’s Federal Credit Union met this criterion and elected to conduct an
MLR.

For each of these MLRs, we will review to (1) determine the cause(s) of the credit union’s
failure and the resulting loss to the NCUSIF; and (2) assess NCUA’s supervision of the credit
union. To achieve these objectives, we will analyze NCUA examination and supervision
reports and related correspondence; interview management and staff from NCUA Regional
offices; and review NCUA guidance, policies and procedures, NCUA Call Reports, and
Financial Performance Reports.

Accounting for Share Insurance Fund Losses
NCUA has several methods for accounting for losses and failures of credit unions. Accounting
for losses and failures depends on whether NCUA is recording a loss, assistance, merger or
liquidation. Credit unions may close through a variety of methods, some voluntary and some
involuntary.

Voluntary closures include voluntary liquidations and unassisted mergers. Both federal and
state chartered credit unions may also convert to banks and some state chartered credit
unions may convert to private insurance. Involuntary closures include involuntary liquidations
(including purchase and assumptions) and assisted mergers. Under certain circumstances,
NCUA may provide “Section 208 assistance” to a credit union. This may entail a loan to the
credit union or the purchase of some credit union assets. These may produce a loss to the
NCUSIF. The objective of our review is to determine: (1) NCUA’s methodology for identifying
and tracking credit union failures and losses to the NCUSIF; (2) what constitutes a loss to the
NCUSIF; (3) when does NCUA recognize and report the loss; and (4) how NCUA identifies,
tracks and classifies the various types of credit union closures, such as failures, mergers,
purchase and assumptions, and liquidations.

NCUA’s Conference Related Activities and Expenses
Seventy-five percent of NCUA staff is geographically dispersed and it is important to bring
them together for training. Accordingly, NCUA sponsors national and regional conferences for
employees to provide information about emerging issues, divisional priorities and initiatives,
group training and networking opportunities. In recent years other OIGs have found instances
of excessive and wasteful conference spending. Subsequently, President Obama issued
Executive Order 13589, Promoting Efficient Spending, and tasked the Office of Management
and Budget (OMB) with agency oversight. As an independent agency NCUA is not required to

                                              17
   Semiannual Report to the Congress                            October 1, 2012 – March 31, 2013


comply with Executive Order 13589; however, OMB instructed agencies and departments to
review policies and controls associated with conference related activities and expenses. The
objective of this audit it to determine whether NCUA’s conference related activities and
expenses comply with the spirit of the OMB instructions.

Significant Audit Recommendations on Which Corrective Action Has Not Been
Completed
As of March 31, 2013, below is a list of OIG reports with unimplemented recommendations
where management has agreed to implement corrective action but has not completed. This
information is based on (1) information supplied by NCUA Office of Examination and Insurance
and (2) the OIG’s report recommendation tracking system.

Report Number, Title and Date

OIG-10-20 OIG Capping Report on Material Loss Reviews, November 23, 2010

Significant Recommendations Open and Brief Summary

On November 23, 2010 the OIG issued report #OIG-10-20 titled OIG Capping Report on
Material Loss Reviews. There are 2 open recommendations related to the examination and
supervision procedures for overseeing credit unions. These issues include documentation,
call reports, third party relationships, exam procedures, and regulatory guidance related to
concentration. We have determined that NCUA has made significant progress and is in
various stages of implementing corrective action on both of these recommendations.




                                              18
Semiannual Report to the Congress                               October 1, 2012 – March 31, 2013


Report on Credit Union Losses under Materiality Level of $25 Million
Section 988 of P.L. 111-203, the “Dodd-Frank Wall Street Reform and Consumer
Protection Act” did two things relative to material loss reviews (MLR) of failed credit
unions.

First, the threshold for a mandated material loss review was raised to $25 million or
greater loss to the National Credit Union Share Insurance Fund (NCUSIF or SIF)
starting on the implementation date of the Act (July 21, 2010) and going forward.

Second, the NCUA OIG is required to (1) perform limited reviews of all credit union
failures under the threshold to assess whether an in-depth review (consistent with the
scope of a material loss review) is warranted and (2) report to the National Credit Union
Administration Board and the Congress every 6 months on the results of the limited
reviews and the timeframe for performing any in-depth reviews we determine are
necessary.

This report on losses not reaching $25 million covers the six-month period from October
1, 2012 to March 31, 2013. For all losses to the SIF under the MLR threshold, we
determined (1) why NCUA initiated assistance and (2) whether any unusual
circumstances existed that might warrant an in-depth review of the loss.

For each limited review, we performed procedures that included, but were not limited to:
1) obtaining and analyzing the regulator’s supervisory memorandum and other pertinent
documents; 2) preparing a schedule of CAMEL ratings assigned to the institution
through full scope or other examinations during the five years preceding the failure; 3)
conducting interviews as needed; 4) inquiring about any investigative actions that were
taken, planned, or considered involving credit union officials or others; and 5) analyzing
supervisory history and other review methods.

We conducted limited reviews of five failed credit unions that incurred losses to the
NCUSIF under $25 million between October 1, 2012 and March 31, 2013. Based on
those limited reviews, we determined that one of the losses warranted conducting
additional work. For the four failed credit unions for which we do not intend to conduct
additional work, we concluded that either: 1) no unusual circumstances presented
themselves in our review, or 2) we had already addressed the reasons identified for
failure in recommendations to the agency in previous MLR reports.

The chart below provides details on the five credit union losses to the NCUSIF of less
than $25 million. It provides details on the credit union such as the date of failure, the
estimated loss to the NCUSIF, and grounds for conservatorship, merger, or other
factors. The chart also provides our decision whether to terminate or proceed with a
full-scope MLR of the credit union.




                                             19
  Semiannual Report to the Congress                                         October 1, 2012 – March 31, 2013



  Decisions Regarding Losses less than $25 million
                                                            Est. Loss to   Grounds for the NCUA
Decision**   Credit Union     Region      Loss Date
                                                            NCUSIF         Appointment

                                                                           Insolvent due to unsafe and
                                                                           unsound management practices that
             El Barrio                                                     included management’s inability to
Terminate    Federal Credit       I       11/16/2012          $185,000     correct issues related to its loan
             Union                                                         portfolio, high operating expenses,
                                                                           inadequate ALLL funding, and poor
                                                                           recordkeeping.

                                                                           Insolvent due to unsafe and
             Border Lodge                                                  unsound management practices
Terminate                         I       11/30/2012          $215,804
             Credit Union                                                  related to suspicious activity
                                                                           conducted by the CEO.
                                                                           Insolvent due to unsafe and
                                                                           unsound management practices
             Olean Tile
                                                                           related to suspicious activity by the
             Employees
Terminate                         I       12/17/2012          $609,636     credit union’s manager to falsify
             Federal Credit
                                                                           documents to conceal significant out
             Union
                                                                           of balance conditions and
                                                                           misappropriated funds.
                                                                           Insolvent due to unsafe and
                                                                           unsound management practices
                                                                           related to the credit union’s inability
                                                                           to correct issues related to declining
             Amez United                                                   net worth and total assets, negative
Terminate                         I        2/19/2013           $5,397
             Credit Union                                                  earnings, high loan delinquency and
                                                                           high loan losses, poor loan
                                                                           underwriting, bank reconcilement
                                                                           deficiencies, and accounting
                                                                           concerns.
                                                                           Insolvent due to embezzlement
                                                                           perpetrated by a manager, which
                                                                           involved an elaborate scheme to
             G.I.C. Federal                                                falsify certificates of deposit,
Proceed                           III     12/13/2012         $6,000,000
             Credit Union                                                  investment statements, and bank
                                                                           statements to conceal an $8.1
                                                                           million shortage in the credit union’s
                                                                           asset accounts.

  **Criteria for each decision included: (1) dollar value and/or percentage of loss; (2) the institution’s
  background, such as charter type and history, geographic location, affiliations, business strategy;
  (3) uncommon cause of failure based on prior MLR findings; (4) unusual supervisory history, including the
  nature and timing of supervisory action taken, noncompliance with statutory examination requirements,
  and/or indications of rating disagreements between the state regulator and NCUA; and (5) other, such as
  apparent fraud, request by NCUA Board or management, Congressional interest, or IG request.




                                                       20
   Semiannual Report to the Congress                               October 1, 2012 – March 31, 2013


PEER REVIEWS

October 1, 2012 through March 31, 2013
Government Auditing Standards require audit organizations that perform audits and attestation
engagements of federal government programs and operations undergo an external peer
review every three years. The objectives of an external peer review include a review of an
audit organization’s system of quality control to determine not only the suitability of the design,
but also whether the audit organization is in compliance with its quality control system so as to
provide reasonable assurance the audit organization conforms to applicable professional
standards.

External Peer Review of NCUA OIG Office of Audit
During the current semiannual period, the Peace Corps OIG completed our most recent peer
review on February 4, 2013 for the three-year period ended December 31, 2012. The Peace
Corps OIG issued its report entitled System Review Report and rendered the opinion that the
system of quality control for the NCUA OIG, Office of Audit, was suitably designed and
complied with, thus providing reasonable assurance the system of controls conformed with
applicable professional standards in all material respects. As a result, we received a peer
rating of pass. In addition, we have no outstanding recommendations from this external peer
review. A copy of this report is included herein as Appendix A.

External Peer Review of National Labor Relations Board OIG Office of Audit
The NCUA OIG completed a peer review of the National Labor Relations Board (NLRB) OIG.
On October 31, 2011, we issued an external peer review report for the audit function of the
NLRB OIG for the three year period ended September 30, 2011. The NLRB received a rating
of pass and has no outstanding recommendations related to the peer review report.




                                                21
Semiannual Report to the Congress                            October 1, 2012 – March 31, 2013



                               INVESTIGATIVE ACTIVITY

In accordance with professional standards and guidelines established by the United
States Department of Justice, the NCUA OIG Office of Investigations (OI) conducts
investigations of criminal, civil, and administrative wrongdoing involving the agency’s
programs, operations, and personnel. Our investigative program focuses on activities
designed to promote both efficiency and economy within the NCUA and its programs
and operations, and to fight fraud, waste, and abuse. In this regard, we investigate
referrals and allegations of misconduct on the part of NCUA employees, former
employees, and contractors. Investigations may involve possible violations of
regulations involving Federal employee responsibilities and conduct, agency policies,
Federal criminal law, and other statutes and regulations. Finally, we have a robust
training program within the agency that encompasses integrity awareness briefings and
orientation presentations regarding the role of the OIG within the agency and how to
report wrongdoing to the OI.

Additionally, we routinely receive complaints from credit union officials and their
members which involve NCUA employee program responsibilities. We examine these
complaints and determine if there is any indication of misconduct or wrongdoing by an
NCUA employee. If not, we refer the complaint to the NCUA Office of Consumer
Protection (OCP) or appropriate regional office for response, or close the matter if
contact with the OCP or the regional office indicates that the matter has already been
appropriately handled.

The instructional guidance the OI provides to new NCUA employees and newly
appointed supervisors about the respective roles and responsibilities of the OIG and
NCUA employees facilitates more open communication between both. The final
product is a stronger agency.

OIG Hotline Contacts
The OIG has and maintains a 24 hour toll free hotline to enable employees and citizens
to call in and provide information about suspected fraud, waste, and abuse or
mismanagement involving agency programs or operations. Additionally, the OIG
receives complaints from an off-site post office box, electronic mail, and facsimile
messages. The OI also now has in place an electronic version of a hotline complaint
form, located on the NCUA intranet. The electronic form offers an additional venue for
confidential employee and contractor communication with the OIG. All information
received from any of these sources is referred to as a hotline contact. The OIG hotline
program is administered to by our Office Manager, under the direction of the Director of
Investigations.

The majority of hotline contacts we receive are from consumers seeking assistance with
problems encountered within their respective credit unions. As discussed above, these
contacts are generally referred to the OCP and regional offices for action.


                                           22
Semiannual Report to the Congress                              October 1, 2012 – March 31, 2013




                          Hotline Complaints



                                                  Phone Call / Voicemail
                                                  Email
                                                  Letter / Facsimile




Phone Call / Voicemail              82
Email                           134
Letter / Facsimile                  16
Total:                          232



INVESTIGATIONS

Employee Misconduct / Misuse of Government Property
During this reporting period, the OIG received an allegation that an NCUA employee
used her government-issued travel card for personal purchases, amounting to
approximately $7,000.00 in charges. The investigation substantiated the unauthorized
use by the employee. Prior to the agency initiating disciplinary action, the employee
resigned from her position. The OIG closed the investigation during the reporting
period.

Employee Misconduct / False Statements
During the reporting period, the OIG received allegations that an employee made false
statements on travel reimbursement vouchers based on her relocation to another
geographical location. The investigation did not substantiate the allegations. To divert
any future issues of a similar nature, the office where the employee is assigned is
conducting training which addresses the proper completion of travel vouchers. The OIG
closed the investigation during the reporting period.



                                          23
Semiannual Report to the Congress                            October 1, 2012 – March 31, 2013


Employee Misconduct/ False Statements
During this reporting period, the OIG received allegations that a newly hired employee
may have falsified his employment application and provided false information on
background investigation documentation with regard to his education credentials as well
as pending criminal charges. The United States Attorney’s Office was briefed as to the
details of the case and deferred prosecution. The investigation substantiated the
allegations and the employee was terminated. The OIG closed the investigation during
the reporting period.

PEER REVIEWS

October 1, 2012 through March 31, 2013
Section 6(e)(7) of the Inspector General Act of 1978, as amended, requires those OIGs
that have been granted statutory law enforcement authority pursuant to the Act, to be
periodically reviewed by another OIG or a committee of OIGs (Peer Review). The
purpose of the peer review is to ascertain whether adequate internal safeguards and
management procedures exist to ensure that the law enforcement powers conferred by
the 2002 amendments to the Act are properly exercised. The NCUA OIG does not have
statutory law enforcement authority. Consequently, our investigative organization is not
required to have a peer review and, to date has neither undergone a peer review nor
conducted a peer review of another OIG. However, the OI is scheduled for its first peer
review the third quarter of 2013 and is slated to conduct a peer review the first quarter
of 2014.




                                           24
   Semiannual Report to the Congress                                     October 1, 2012 – March 31, 2013


                         LEGISLATIVE AND REGULATORY REVIEWS

Section 4(a) of the Inspector General Act requires the Inspector General to review existing and
proposed legislation and regulations relating to the programs and operations of the NCUA and
to make recommendations concerning their impact. Moreover, we routinely review proposed
agency instructions and other policy guidance, in order to make recommendations concerning
economy and efficiency in the administration of NCUA programs and operations and the
prevention and detection of fraud, waste and abuse.

During the reporting period, the OIG reviewed 19 items, including proposed legislation,
proposed and final regulations, Advanced Notice of Proposed Rulemakings (ANPR), NCUA
Interpretative Rulings and Policy Statements (IRPS), and NCUA Letters to Credit Unions
(LCU). The OIG also responded to 11 Freedom of Information Act (FOIA) requests.

                       SUMMARY OF STATUTES AND REGULATIONS REVIEWED

        Legislation                                          Title

    S. 743                  The “Whistleblower Protection Enhancement Act of 2012”

    P.L. 110-140            The “Energy Independence and Security Act of 2007”

    S. 300                  The “Government Charge Card Abuse Prevention Act”
                            The “Improper Payments Elimination and Recovery Improvement Act of
    H.R. 4053               2012”

    S. 3600/H.R. 2146       The “Digital Accountability and Transparency Act of 2011”

    H.R. 749                The “Eliminate Privacy Notice Confusion Act”

    S. 3468                 The “Independent Agency Regulatory Analysis Act of 2012”


      Regulations/Rulings/IRPS                                       Title
                                       Chartering and Field of Membership Manual for Federal
    12 CFR Part 701                    Credit Unions (Final Action)

    12 CRF Part 703                    Investment and Deposit Activities (Final Action)
    12 CFR Parts 700, 741, 747 and
    750                                Definition of Troubled Condition (Final Action)
    12 CFR Part 702, 741, and 791;     Prompt Corrective Action, Requirements for Insurance, and
    IRPS 13-1                          Promulgation of NCUA Rules and Regulations (Final Action)
                                       Designation of Low-Income Status; Acceptance of
                                       Secondary Capital Accounts by Lo- Income Designated
    12 CFR Parts 701 and 741           Credit Unions (Proposed Rule)
                                       Treasury Tax and Loan Depositories; Depositories and
                                       Financial
    12 CFR Part 701                    Agents of the Government (Final Action)


                                                   25
Semiannual Report to the Congress                                    October 1, 2012 – March 31, 2013



 12 CFR Part 34 and 164             Appraisals for Higher-Priced Mortgage Loans (Final Action)

 12 CFR Part 713                Fidelity Bond and Insurance Coverage (Final Action)
 12 CFR Parts 703, 704, 709, 74
 And 742                        Alternatives to the Use of Credit Ratings (Final Action)

 12 CFR Part 701                    Federal Credit Union Ownership of Fixed Assets (NPR)

  Letters to Credit Unions                                   Title

 NCUA LCU No. 13-CU-01          Supervisory Focus for 2013

 NCUA LCU No. 13-CU-02          Member Business Loan Waivers




                                                26
   Semiannual Report to the Congress                               October 1, 2012 – March 31, 2013




                         TABLE I: INSPECTOR GENERAL ISSUED REPORTS
                                    WITH QUESTIONED COSTS
                                                       Number of Questioned Unsupported
                                                        Reports    Costs       Costs

              For which no management decision
        A.    had been made by the start of the
              reporting period.                            0        $0               $0

        B.    Which were issued during the
              reporting period.                            0         0                0


              Subtotals (A + B)                            0         0                0

        C.    For which management decision was
              made during the reporting period.            0         0                0


              (i) Dollar value of disallowed costs         0         0                0

              (ii) Dollar value of costs not allowed
                                                           0         0                0
              For which no management decision
        D.    has been made by the end of the
              reporting period.                            0         0                0
              Reports for which no management
        E.    decision was made within six months
              of issuance.                                 0         0                0

Questioned costs are those costs the OIG has questioned because of alleged violations of
laws, regulations, contracts, or other agreements; findings which at the time of the audit are
not supported by adequate documentation; or the expenditure for the intended purpose is
unnecessary or unreasonable.

Unsupported costs (included in "Questioned Costs") are those costs the OIG has questioned
because of the lack of adequate documentation at the time of the audit.




                                                 27
   Semiannual Report to the Congress                            October 1, 2012 – March 31, 2013




                    TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH
                   RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                Number of         Dollar
                                                                 Reports          Value


              For which no management decision had been
         A.
              made by the start of the reporting period.             0              $0


         B.   Which were issued during the reporting period.         0               0



              Subtotals (A + B)                                      0               0


              For which management decision was made
         C.
              during the reporting period.                           0               0


              (i) Dollar value of recommendations agreed to
              by management.                                       N/A             N/A


              (ii) Dollar value of recommendations not agreed
              to by management.                                    N/A             N/A


              For which no management decision was made
         D.
              by the end of the reporting period.                    0               0


              For which no management decision was made
         E.
              within six months of issuance.                         0               0

Recommendations that "Funds to be Put to Better Use" are those OIG recommendations that
funds could be used more efficiently if management took actions to reduce outlays, de-obligate
funds from programs/operations, avoid unnecessary expenditures noted in pre-award reviews
of contracts, or any other specifically identified savings.




                                              28
   Semiannual Report to the Congress                               October 1, 2012 – March 31, 2013




                                 TABLE III: SUMMARY OF OIG ACTIVITY
                                October 1, 2012 through March 31, 2013

                                       PART I – AUDIT REPORTS ISSUED
 Report                                                                                       Date
 Number                                            Title                                     Issued

OIG-12-11      Material Loss Review of O.U.R. Federal Credit Union               10/2/2012
               NCUA’s Use of the Delphi Financial Management System versus the
OIG-12-12      R/3 Enterprise Resource System                                   10/11/2012
               Independent Evaluation of the NCUA’s Compliance with the Federal
OIG-12-13      Information Security Management Act (FISMA) 2012                 11/15/2012

OIG-12-14      Material Loss Review of Eastern New York Federal Credit Union              11/19/2012
OIG-13-01/
 02/03/04      NCUA Financial Statements Audit 2012 (CDRLF, OF, CLF, SIF)                 2/15/2013

OIG-13-05      Material Loss Review of Telesis Community Credit Union                     3/15/2013
                         PART II – AUDITS IN PROGRESS (as of March 31, 2013)


NCUA Financial Statements Audit 2012 (TCCUSF)

Material Loss Reviews

Accounting for Share Insurance Fund Losses




                                                   29
 Semiannual Report to the Congress                                October 1, 2012 – March 31, 2013




                             INDEX OF REPORTING REQUIREMENTS

                                                                                            Page
Section                                  Data Required
                                                                                             Ref

4(a)(2)     Review of legislation and regulations                                           25
            Significant problems, abuses, or deficiencies relating to the
            administration of programs and operations disclosed during the
5(a)(1)     reporting period.                                                               13
            Recommendations with respect to significant problems, abuses or
5(a)(3)     deficiencies                                                                    13
            Significant recommendations described in previous semiannual
5(a)(3)     reports on which corrective action has not been completed.                      18
            Summary of matters referred to prosecution authorities and
5(a)(4)     prosecutions which have resulted.                                              None
            Summary of each report to the Board detailing cases where access
5(a)(5)     to all records was not provided or where information was refused.              None

5(a)(6)     List of audit reports issued during the reporting period.                       29

5(a)(7)     Summary of particularly significant reports.                                    13

5(a)(8)     Statistical tables on audit reports with questioned costs.                      27
            Statistical tables on audit reports with recommendations that funds
5(a)(9)     be put to better use.                                                           28
            Summary of each audit report issued before the start of the reporting
            period for which no management decision has been made by the end
5(a)(10)    of the reporting period.                                                       None
            Description and explanation of reasons for any significant revised
5(a)(11)    management decision made during the reporting period.                          None
            Information concerning significant management decisions with which
5(a)(12)    the Inspector General is in disagreement.                                      None
            An appendix containing the results of any peer review conducted by
            another OIG during the reporting period or, if no peer review was
            conducted within that reporting period, a statement identifying the
5(a)(14)    date of the last peer review conducted by another OIG.                          31
            List of outstanding recommendations from any peer review
5(a)(15)    conducted by another OIG that have not been fully implemented.                 None
            A list of any peer reviews conducted by the IG of another OIG during
            the reporting period, including a list of any outstanding
            recommendations made that remain outstanding or have not been
5(a)(16)    fully implemented.                                                              21

                                               30
Semiannual Report to the Congress         October 1, 2012 – March 31, 2013




APPENDIX A: SYSTEM REVIEW REPORT (PEER REVIEW OF NCUA OIG)




                                    31
Semiannual Report to the Congress        October 1, 2012 – March 31, 2013




                                    32
